              News From The Office of Inspector General
             Corporation For National And Community Service




BROOKLYN MAN GETS JAIL FOR CHILD-CARE SCAM

Following an investigation by the Office of Inspector General, a former
AmeriCorps member from Brooklyn, NY, pled guilty on July 8, 2003, to
defrauding the Corporation for National and Community Service’s
AmeriCorps*Care program.

Mr. Richlet Valmord enrolled his two children in an AmeriCorps*Care
program while serving as an AmeriCorps volunteer. He soon removed
one of his children from the program, saying that his spouse would be
caring for that child. He produced a forged letter, which appeared to
be on an AmeriCorps*Care letterhead, which authorized his
AmeriCorps*Care provider to continue to claim both of his children on
her rolls and to divert to him the AmeriCorps*Care money allocated for
the child who was no longer in the program. Mr. Valmord illegally
received $2,200 in Corporation under the scheme.

Mr. Vamord pled guilty in Kings County District Court, Brooklyn, NY, to
a charge of disorderly conduct. He was sentenced to serve 15 days at
New York’s Rikers Island Detention Center and to make full restitution
to the Corporation.

The Office of Inspector General has also recommended to the
Corporation that it debar Mr. Valmord. Such action would disqualify
Mr. Valmord from Government procurement and other programs for a
period of time.
